          U.S. Department of Energy
          Office of Inspector General
          Office of Audit Services




Audit Report

Sandia National Laboratories
Nuclear Weapons Safety Program
(U)




DOE/IG-0799                             July 2008
The following is an unclassified summary of the classified Audit Report on "Sandia
National Laboratories Nuclear Weapons Safety Program (DOE/IG-0799, July 31, 2008)

BACKGROUND

Nuclear weapons safety is of paramount importance to U.S. security. The Department of
Energy's National Nuclear Security Administration (NNSA) requires that design features
minimizing the possibility of accidental or inadvertent nuclear detonation be incorporated
in all nuclear weapons.

Although ultimate responsibilities for nuclear weapons safety rests with Federal managers,
NNSA's Sandia National Laboratories, a contractor-operated entity, produces independent
safety assessments to identify nuclear weapons safety issues. Sandia's Nuclear Safety
Assessment organization performs the independent assessments and reports identified
safety issues to Sandia's Weapons Management organization, Systems Engineering.
Systems Engineering designs non-nuclear components of nuclear weapons systems, and
determines what safety issues will be reported to NNSA.

Because of the importance of nuclear weapons safety to national security, we performed an
audit to determine whether nuclear weapons safety issues identified by Sandia's Safety
Assessment organization were being addressed in a timely manner.

RESULTS OF AUDIT

Sandia had not resolved disagreements between Sandia's Safety Assessments and Systems
Engineering about the need to address identified safety issues. Although Safety
Assessment identified safety issues and characterized them as adversely impacting assured
safety, Systems Engineering senior management generally considered those issues to be
only postulated weaknesses. Sandia asserted that disagreements between Systems
Engineering and Safety Assessment were documented for the Laboratories' Director to
consider in deciding whether weapons are safe or other actions required. However, Sandia
could not provide any formal documentation explaining the risks posed by safety issues and
the basis for accepting those risks, and/or plans showing how the risks would be mitigated.

We were concerned that NNSA had not provided effective oversight of outstanding safety
issues. Specifically, NNSA weapons managers had not obtained Safety Assessment safety
reports from Sandia. As early as 1994, Sandia managers and other have raised concerns
that safety issues were not being fully reported to the Department of Energy (Department).
We noted that NNSA had not specified through guidance or requirements what safety
information it needed from Sandia regarding safety concerns or how it planned to resolve
them.

Although Sandia concluded that nuclear weapons systems are safe, it is important that
decision makers at the most senior levels of the Department and NNSA have all of the
information regarding nuclear weapons safety concerns in order to make and prioritize
funding and design decisions. Accordingly, we made recommendations to address
disagreements within Sandia regarding safety issues and to improve the transparency of
such issues to decision makers.
